<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 110-1151]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1151

                          NOMINATIONS TO THE 
                         DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>













                  U.S. GOVERNMENT PRINTING OFFICE

75-203 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2008......................................     1
Statement of Senator Stevens.....................................     1
Prepared statements submitted by Senator Stevens:
    Collins, Hon. Susan M., U.S. Senator from Maine..............     9
    Snowe, Hon. Olympia J., U.S. Senator from Maine..............     1

                               Witnesses

Brennan, Dr. William J., Nominee to be Assistant Secretary for 
  Oceans and Atmosphere, United States Department of Commerce....    10
    Prepared statement...........................................    12
    Biographical information.....................................    13
Claffee, Lily Fu, Nominee to be General Counsel, United States 
  Department of Commerce.........................................     2
    Prepared statement...........................................     4
    Biographical information.....................................     4

 
                          NOMINATIONS TO THE 
                         DEPARTMENT OF COMMERCE

                              ----------                              


                         THURSDAY, MAY 1, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in the 
Russell Senate Office Building, Room 253, Hon. Ted Stevens, 
presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Good afternoon. I'm grateful to the 
Chairman for asking me to chair this hearing so that we might 
have the opportunity to present these nominations to the floor 
as soon as possible. We know the jurisdiction of the Commerce 
Department is extensive, ranging from development of 
telecommunications and information policy issues to the state 
of fisheries and the oceans, and the Department is launching 
many challenging initiatives in all of the areas of its 
expertise, including NOAA.
    I know Senator Snowe would like to be here today. She's 
asked me to pass along her regrets in particular to you, Dr. 
Brennan. Her presence is required at the mark-up of another 
Committee where I should be, also, but she's asked the Chairman 
to introduce her statement in the record and it will be 
introduced in the record.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, and let me express my sincere appreciation 
to you for your timely consideration and scheduling of this hearing for 
the nominee for Assistant Secretary of Commerce for Oceans and 
Atmosphere.
    Mr. Chairman, Vice Chairman Stevens, other Members of the 
Committee, I am pleased to introduce and speak on behalf of the 
President's nominee to be Assistant Secretary for Oceans and 
Atmosphere, Dr. William J. Brennan, an individual uniquely suited to 
address the vast array of issues encompassed by this position. And I 
also want to welcome here today his wonderful family--his wife, 
Heather, and their children, William, Tyler, and Hayley. I know this is 
a proud moment for them as well.
    A scan of Dr. Brennan's resume reads like a wish-list of experience 
one would hope to find in a nominee for the number two position at 
NOAA. He holds a Bachelor's degree in Marine Biology, a Master's in 
Marine Affairs, and a Ph.D. in Ecology and Environmental Sciences. For 
eight years, he served as Commissioner of Maine's Department of Marine 
Resources during the Administration of my husband, Governor John 
McKernan. And he has worked for NOAA at both micro and macro levels--as 
a marine fisheries scientist early in his career, and most recently as 
Deputy Assistant Secretary for International Affairs, and Acting 
Director of the Climate Change Science Program.
    His exemplary work in these offices combines with an appreciation 
for our oceans born of a lifetime spent along the coast of Maine. This 
was never more readily apparent than during his tenure as our 
Commissioner of Marine Resources. Faced with a declining budget, he 
still managed to maintain and even enhance critical services, while 
leveraging support to construct a $10 million state-of-the-art marine 
research facility which has led to vast improvements in the management 
of Maine's lobster and shellfish industries and increased ocean 
literacy throughout the state. As NOAA's Director of International 
Affairs, Bill reinvigorated NOAA's international programs, scoring 
major victories for U.S. foreign policy through stronger high seas 
fishing regulations, prevention of the resumption of commercial 
whaling, and establishment of the Global Earth Observation System of 
Systems.
    Most recently, in 2006, Bill took over as Acting Director of the 
Climate Change Science Program, a $1.7 billion undertaking spanning 
thirteen Federal agencies. I think everyone in this room understands 
the degree of difficulty involved in convincing even two branches of 
the Federal Government to work in tandem. But under his leadership, the 
CCSP is on track to issue sixteen reports--some as much as 3 years past 
due--by the end of the year, and a comprehensive Scientific 
Assessment--which was last updated in 2000--by the end of this month.
    If confirmed, Bill will provide over thirty years of background in 
marine science, legislative process, leadership, and oversight at a 
time when NOAA faces a broad spectrum of challenges, from 
implementation of the Magnuson-Stevens Reauthorization Act to 
developing policies for mitigation of and adaptation to the impending 
impacts of global climate change. He has a documented history of 
implementing sensible, efficient policies to manage the invaluable 
resources and incalculable splendor of our oceans. I have no doubt that 
this level of service will continue as Assistant Secretary of Commerce 
for Oceans and Atmosphere.
    Again, I want to commend the Committee for holding this hearing and 
I appreciate your consideration of William Brennan for Assistant 
Secretary of Commerce for Oceans and Atmosphere. Thank you, Mr. 
Chairman.

    Senator Stevens. And we're pleased to have you here, Ms. 
Claffee. So I would like to begin with you, Ms. Claffee, to be 
nominated to be the General Counsel of the Department of 
Commerce.
    Do you have a statement you wish to make?

 STATEMENT OF LILY FU CLAFFEE, NOMINEE TO BE GENERAL COUNSEL, 
              UNITED STATES DEPARTMENT OF COMMERCE

    Ms. Clafee. Thank you, Mr. Vice Chairman. I'm honored to 
appear before you today as the President's nominee to serve as 
the next General Counsel of the United States Department of 
Commerce.
    I'm grateful for the opportunity that President Bush has 
given to me to continue serving the American people, and I 
deeply appreciate the confidence and support shown to me by 
Secretary Gutierrez. I also wish to extend a sincere word of 
thanks to this Committee and to its staff for the courtesies 
that you have extended me throughout this process.
    The General Counsel of the Department of Commerce serves as 
the agency's chief legal officer, providing legal advice and 
guidance to the Secretary and other senior Commerce officials 
as they further the core mission of the Department, namely, to 
serve the American people by helping to create the right 
conditions for economic growth and expanded opportunity.
    The breadth of the Department's responsibilities and 
activities is reflected in the complex legal environment within 
which the Department must operate. Handling the wide range of 
issues faced daily in the Department, from regulation of 
international trade to management of marine fisheries to 
numerous scientific, environmental, technological and economic 
endeavors, is a formidable challenge but it is one that I 
welcome.
    If I'm confirmed by the Senate, I would bring valuable 
experience and knowledge to the position of General Counsel. In 
my nearly 15 years of law practice, I've had the privilege of 
serving in a number of public and private sector positions, 
first as a law clerk to a Federal appellate judge, as an 
associate, then later as a litigation partner in the global law 
firm now known as Mayer Brown, LLP, handling complex antitrust 
matters.
    I was a hiring partner of that firm's 200-attorney 
Washington office. As a Deputy Associate Attorney General at 
the Department of Justice overseeing several major litigating 
components, and currently, as the deputy general counsel of the 
Department of the Treasury where, along with the general 
counsel, I oversee a legal division of nearly 2,000 attorneys.
    Each of these positions has helped provide me with the 
skills and experience necessary to lead and manage the work of 
a large legal organization charged with a vast array of 
programmatic responsibilities.
    My government service over the last 3 years in particular 
has given me broad exposure to the functioning of Federal 
agencies, their relationship with Congress, and the importance 
of having strong and independent Inspectors General.
    Yet I know I have much to learn about the Commerce 
Department and the laws and regulations that govern its 
operations. As I learn, I know I will be well supported by a 
deep staff of talented career lawyers and other professionals. 
I am confident that, with their support, I will be able to 
perform my duties with the skill and professionalism that the 
President, the Members of this Committee, Secretary Gutierrez 
and the public expect and deserve.
    In particular, the General Counsel serves no more important 
role than the chief ethics officer for the Department. 
Secretary Gutierrez has already requested that during my 
tenure, I continue to make this responsibility a top priority 
of the Department.
    In conclusion, let me affirm my belief that stewardship 
through public service is a special privilege and 
responsibility and that it is a lawyer's highest calling. 
Nowhere have I learned this lesson more vividly than from my 
immigrant parents who, having left their homes and families 
behind in China many decades ago in search of the American 
dream, felt a particular responsibility to impress upon their 
American-born daughter how precious the blessings of liberty 
and opportunity are that they found in this great land.
    They and in particular my father, who as a young airman in 
China, fought in the Second World War with men like the 
Chairman and the Vice Chairman to preserve a heritage of 
freedom, keenly understood the importance of service to one's 
nation.
    If confirmed, I will commit my utmost ability, integrity 
and devotion to serving the president and the American people.
    Thank you again, Mr. Vice Chairman, for the opportunity to 
appear before you today and for your consideration of my 
nomination, and I would be pleased to take any questions that 
you may have.
    [The prepared statement and biographical information of Ms. 
Claffee follow:]

 Prepared Statement of Lily Fu Claffee, Nominee to be General Counsel, 
                  United States Department of Commerce
    Mr. Chairman, Mr. Vice Chairman, Members of the Committee,

    I am honored to appear before you today as the President's nominee 
to serve as the next General Counsel of the United States Department of 
Commerce. I am grateful for the opportunity that President Bush has 
given me to continue serving the American people, and I deeply 
appreciate the confidence and support shown to me by Secretary 
Gutierrez. I also wish to extend a sincere word of thanks to this 
Committee and to its staff for the courtesies they have extended to me 
throughout this process.
    The General Counsel of the Department of Commerce serves as the 
agency's chief legal officer, providing legal advice and guidance to 
the Secretary and other senior Commerce officials as they further the 
core mission of the Department--namely, to serve the American people by 
helping to create the right conditions for economic growth and expanded 
opportunity. The breadth of the Department's responsibilities and 
activities is reflected in the complex legal environment within which 
the Department must operate. Handling the wide range of issues faced 
daily in the Department--from regulation of international trade to 
management of marine fisheries to numerous scientific, environmental, 
technological, and economic endeavors--is a formidable challenge, but 
one that I welcome.
    If confirmed by the Senate, I would bring valuable experience and 
knowledge to the position of General Counsel. In my nearly 15 years of 
law practice, I have had the privilege of serving in a number of public 
and private sector positions: as a law clerk to a Federal appellate 
judge, as litigation partner in the global law firm now known as Mayer 
Brown LLP handling complex antitrust matters, as hiring partner of that 
firm's 200-attorney Washington office, as a Deputy Associate Attorney 
General at the Department of Justice overseeing several major 
litigating components, and currently as the Deputy General Counsel of 
the Department of the Treasury where, along with the General Counsel, I 
oversee a legal division of nearly 2,000 attorneys. Each of these 
positions has helped provide me with the skills and experience 
necessary to lead and manage the work of a large legal organization 
charged with a vast array of programmatic responsibilities. My 
government service over the last 3 years in particular has given me 
broad exposure to the functioning of Federal agencies, their 
relationship with Congress, and the importance of having strong and 
independent Inspectors General.
    Yet I know I have much to learn about the Department, and the laws 
and regulations that govern its operations. As I learn, I know I will 
be well supported by a deep staff of talented career lawyers and other 
professionals. I am confident that, with their support, I will perform 
my duties with the skill and professionalism that the President, the 
Members of this Committee, Secretary Gutierrez, and the public expect 
and deserve. In particular, the General Counsel serves no more 
important role than as chief ethics lawyer for the Department. 
Secretary Gutierrez has already requested that, during my tenure, I 
continue to make this responsibility a top priority for the Department.
    In conclusion, let me affirm my belief that stewardship through 
public service is a special privilege and responsibility, and that it 
is a lawyer's highest calling. Nowhere have I learned this lesson more 
vividly than from my immigrant parents who, having left their homes and 
families behind in China many decades ago in search of the American 
dream, felt a particular responsibility to impress upon their American-
born daughter how precious the blessings of liberty and opportunity are 
that they found in this great land. They, and in particular, my father, 
who as a young airman in China fought in the Second World War with men 
like the Chairman and the Vice Chairman to preserve a heritage of 
freedom, keenly understood the importance of service to one's nation. 
If confirmed, I will commit my utmost ability, integrity, and devotion 
to serving the President and the American people. Thank you again for 
the opportunity to appear before you today, and for your consideration 
of my nomination.
    I would be pleased to respond to any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Current Name: Lily Fu Claffee
        Former Names: Lily Fu (maiden name)
        Lily Fu Swenson (name during prior marriage)

    2. Position to which nominated: General Counsel of the United 
States Department of Commerce.
    3. Date of Nomination: April 1, 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Deputy General Counsel, United States Department of the 
        Treasury, 1500 Pennsylvania Avenue NW, Washington, D.C. 20220.

    5. Date and Place of Birth: November 22, 1969; Chicago, Illinois.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Scott Andrew Claffee; Attorney, Mayer Brown LLP, 1909 K 
        Street NW, Washington, D.C. 20006.
        Children: None.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Wisconsin--Madison, B.A. (1990) in Philosophy and 
        English
        University of Minnesota Law Center, J.D. (1993)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Deputy General Counsel, United States Department of the 
        Treasury, (September 2006-present).

        Deputy Associate Attorney General, United States Department of 
        Justice, (April 2005-September 2006).

        Partner, Antitrust and Litigation Practice Groups, Mayer, 
        Brown, Rowe & Maw, (January 2003-March 2005) (Hiring Partner, 
        2004-2005).

        Associate, Mayer, Brown & Platt (1994-2002).

        Judicial Clerk, Judge Michael S. Kanne, United States Court of 
        Appeals for the Seventh Circuit (1993-1994).

        Summer Associate, Mayer, Brown & Platt (1992, 1993).

        Summer Associate, Gross & Welch (1991).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Partner, Mayer, Brown, Rowe & Maw (January 2003-March 2005).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Admitted to practice law in the District of Columbia (1996-
        present) and Illinois (1994-present).

        St. Matthew's Cathedral (approx. 1996-present).

        Old St. Mary's Catholic Church (approx. 2003-present).

        John Carroll Society (various years since 1996).

        American Enterprise Institute (various years since approx. 
        2000).

        Heritage Foundation (various years since approx. 2000).

        Federalist Society (various years since 1991).

        Washington Sports Club (various years between approx. 1996 and 
        2000).

        LA Sports Club DC (various years between approx. 2000 and 
        2006).

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age or 
        disability.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Deputy General Counsel, United States Department of the 
        Treasury (September 2006-present) (appointed).

        Deputy Associate Attorney General, United States Department of 
        Justice (April 2005-September 2006) (appointed).

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    See records of the Federal Election Commission (retained in 
Committee files).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Recipient of full tuition scholarships for all 3 years of law 
school.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Balancing Antitrust Issues And Intellectual Property Rights: A 
        Practical Guide For Biotech/Pharma Companies In Managing Their 
        IP Portfolios, coauthored with Scott P. Perlman, Washington 
        Legal Foundation (2003).

        ``High Crimes From Misdemeanors: The Collateral Use Of Prior, 
        Uncounseled Misdemeanors Under The Sixth Amendment, Baldasar, 
        And The Federal Sentencing Guidelines,'' 77 Minn. L. Rev. 165 
        (1992)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Presented oral and written testimony as Deputy Associate Attorney 
General at the Department of Justice before the House Subcommittee on 
Immigration, Border Security and Claims concerning Immigration Removal 
Procedures Implemented in the Aftermath of the September 11 Attacks 
(June 30, 2005).
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The duties of my prior three jobs have prepared me and 
affirmatively qualify me for appointment to serve as the General 
Counsel of the Department of Commerce. As Deputy General Counsel of the 
Department of the Treasury, I currently serve as the principal 
assistant to the General Counsel, and am responsible for providing 
legal and policy advice to senior Treasury officials as well as 
overseeing the operation of a 2,000-attorney Legal Division. In this 
position, I have gained wide-ranging experience in leading and managing 
the work of a large legal organization charged with a vast array of 
programmatic responsibilities relating to the Federal Government's 
stewardship of U.S. economic and financial systems, and United States' 
participation in the global economy. I have developed a deep 
appreciation of the work done by the U.S. Government to strengthen 
national security by promoting economic growth and stability, and 
ensuring the safety, soundness and security of U.S. and international 
financial systems. At the Justice Department, I formulated and 
implemented legal policies and programs pertaining to a wide range of 
civil justice matters, and helped oversee the work of several civil 
litigating divisions, including the Antitrust and Civil Divisions. At 
both agencies, I gained valuable experience advising and representing 
Federal agencies and ensuring the effectiveness of large and diverse 
legal organizations. Finally, prior to entering government, I was a 
partner in a global law firm where I practiced in the areas of 
antitrust and litigation, and served as the hiring partner for the 
firm's 200-attorney Washington office. In that position, I managed 
teams of attorneys on numerous complex litigation matters, and gained 
valuable experience in legal recruiting, hiring and retention at 
various levels of seniority to build a legal organization's depth and 
strength, and to establish its reputation for excellence in the legal 
marketplace.
    I am truly grateful to have been given the special privilege and 
responsibility of serving the Departments of the Treasury and Justice 
for the last 3 years. I believe that public service is a lawyer's 
highest calling. If confirmed by the Senate as General Counsel, I look 
forward to providing quality legal services and sound legal advice to 
enhance the Commerce Department's efforts to fulfill its mission to 
serve the American people.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as General Counsel, I will continue to maintain the 
close working relationships with senior managers in the General 
Counsel's office that were established by my predecessors. As the 
Department's chief legal officer, I will exercise the oversight needed 
to ensure that sound, timely and appropriate legal advice is provided 
to support the effectiveness of Commerce programs, and to ensure that 
the organizational goals and objectives of the General Counsel's office 
are achieved. In addition to daily interaction with agency officials 
and with senior managers in the General Counsel's office, I will attend 
weekly Executive Management Team meetings under the direction of 
Secretary Gutierrez, conduct weekly meetings of senior managers in the 
Office of the General Counsel, and hold formal performance reviews 
throughout the year.
    Through close scrutiny of the Department's legal operations and 
holding managers at all levels accountable for quality and results, the 
Office of the General Counsel will continue to strengthen all facets of 
its operations. I am committed to maintaining the Office's success as a 
performance-oriented organization, and to implementing further 
management reforms such as those established by the President's 
Management Agenda.
    As described in my response to the previous question, I have 
extensive experience in managing large legal organizations. For the 
last year and half as Deputy General Counsel at Treasury, I have been 
responsible for my office's annual budget of $10 million (exclusive of 
bureaus), and have overseen the work of approximately 2,000 lawyers in 
15 different legal offices that provide advice on myriad legal issues 
and policy considerations affecting the Treasury Department and its 
diverse programs. I directly supervise the offices of four Assistant 
General Counsels and three Tax Counsel; through these senior managers, 
I additionally supervise ten bureau Chief or Legal Counsels. As a 
Deputy Associate Attorney General, I oversaw the work of hundreds of 
attorneys in a variety of operating components and litigating 
divisions, including the Antitrust and Civil Divisions.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Because I am not currently employed at the Commerce Department, my 
ability to know of the largest challenges facing the agency is limited. 
Therefore, while I cannot provide a comprehensive response at this time 
based on personal knowledge, I have reviewed public materials related 
to the Department, and have identified the following issues as 
important matters facing the Department:

        Making the Transition to Digital Television. I understand that 
        the National Telecommunications and Information Administration 
        (NTIA) must play a crucial role in helping our Nation make the 
        transition from analog to digital television. Under the Digital 
        Television Transition and Public Safety Act of 2005, NTIA is 
        responsible for establishing and managing several new programs, 
        including, most notably, a grant program for public safety 
        interoperable communications and a coupon program for 
        television converter boxes. Because of the national scope and 
        broad impact of these programs, one of the Department's highest 
        priorities must be to ensure the success of these critical 
        initiatives.

        Development and Acquisition of Satellites. I understand that 
        the National Oceanic and Atmospheric Administration (NOAA), in 
        collaboration with the National Aeronautics and Space 
        Administration (NASA) and the Air Force, is in the process of 
        acquiring certain next-generation satellite systems. Because 
        the accuracy of both routine and severe weather forecasts 
        depends on NOAA's satellites, these systems are critically 
        important to public safety and defense operations. Acquiring 
        satellites is a long and complicated process involving both 
        cutting-edge technical issues and large capital expenditures. 
        Successful procurement of next-generation satellites is an 
        important challenge facing the Department.

        Success and Accuracy of the 2010 Census. I understand that 
        ensuring the success and accuracy of the 2010 census--including 
        successful management of the people, technology, testing and 
        budgets involved--is a top priority of the Department. Every 
        community in the United States is a stakeholder in the outcome 
        of the census. Integral to the success of the census is the 
        public's faith in the Census Bureau's ability to secure the 
        information that is collected. The Department must discharge 
        this important Constitutional responsibility by protecting the 
        data that is gathered, implementing the most effective 
        technologies, and improving the coverage and efficiency of the 
        upcoming decennial census.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I maintain an interest in a 401(k) savings plan established by my 
former law firm (now called Mayer Brown LLP). As disclosed in my 
financial disclosure form (see SF-278), my account is invested in 
diversified mutual funds. No contributions have been, or will be, made 
to this account after the termination of my employment in April 2005.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: See ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: See ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was the defendant in Swenson v. Swenson, D.C. Superior Court No. 
3-dr-409, an uncontested divorce case. The court entered a mutually-
agreed upon order of divorce on March 5, 2003.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of lily fu claffee
Legal Experience
    United States Department of the Treasury, Washington, D.C., 2006 to 
date, Deputy General Counsel.
    United States Department of Justice, Washington, D.C., 2005-2006, 
Deputy Associate Attorney General.
    Mayer, Brown, Rowe & Maw LLP, Washington, D.C., 1996-2005; Chicago, 
IL, 1994-1996; Partner, Litigation and Antitrust Practice Groups, 2003-
2005; Hiring Partner, 2004-2005.
    The Honorable Michael S. Kanne, United States Court of Appeals for 
the Seventh Circuit, 1993-1994, Judicial Clerk.
Education
    University of Minnesota Law School, Minneapolis, MN.

        Juris Doctor, cum laude, 1993.
        Managing Editor, Minnesota Law Review, 1992-1993; Full Merit 
        Scholarship, 1990-1993; Vice-President, Federalist Society, 
        1992-1993.

    University of Wisconsin, Madison, WI.

        Bachelor of Arts, with distinction, 1990.
        Philosophy and English Literature.
Publications
    Balancing Antitrust Issues And Intellectual Property Rights: A 
Practical Guide For Biotech/Pharma Companies In Managing Their IP 
Portfolios, coauthored with Scott P. Perlman, Washington Legal 
Foundation (2003); ``High Crimes From Misdemeanors: The Collateral Use 
Of Prior, Uncounseled Misdemeanors Under The Sixth Amendment, Baldasar, 
And The Federal Sentencing Guidelines,'' 77 Minn. L. Rev. 165 (1992).
Personal
    Born in Chicago, IL; November 22, 1969.
    Speak fluent Chinese (Cantonese).
    Admitted to practice in Illinois (1994) and the District of 
Columbia (1996).

    Senator Stevens. Well, thank you very much. I'm sad that 
there's not more members here today for this, to hear your 
statement. There are at least two mark-ups, plus a debate, 
going on on the Floor. So it's just not possible, but I'm 
heartwarmed by your comment about your father and look forward 
to working with you.
    Our next witness is Dr. William Brennan, Assistant 
Secretary for Oceans and Atmosphere at the Department of 
Commerce.
    Mr. Brennan, as I indicated, we're going to put in the 
record the statement Senator Snowe would make if she were here. 
No, Senator Collins would make, pardon me, Senator Collins. I 
guess it's both would make.
    [The prepared statement of Senator Collins follows:]

  Prepared Statement of Hon. Susan M. Collins, U.S. Senator from Maine
    Thank you, Mr. Chairman. It is my privilege today to introduce Dr. 
William Brennan, the President's nominee to be the Assistant Secretary 
of Commerce for Oceans and Atmosphere. The people of Maine are proud of 
Dr. Brennan's distinguished career of public service and record of 
accomplishment in Maine and in Washington.
    Dr. Brennan's commitment to public service and his extensive 
experience in environmental science and oceans management make him an 
excellent nominee. From his start as a merchant seaman to his 
experience as a NOAA fisheries scientist to his important work as 
Acting Director of the U.S. Climate Change Science Program, Dr. 
Brennan, if confirmed, will provide strong leadership as Assistant 
Secretary.
    I know this because I had the distinct pleasure of serving with Dr. 
Brennan in Maine in Governor John McKernan's Cabinet for many years. 
Dr. Brennan was appointed to a Cabinet position as the Commissioner of 
Maine's Department of Marine Resources in 1987. I can personally attest 
to Dr. Brennan's dedication and skill in managing one of Maine's most 
complex natural resources.
    Prior to our working together, Dr. Brennan earned undergraduate and 
graduate degrees in marine biology and marine affairs from the 
University of Maine and the University of Rhode Island. He also served 
on Capitol Hill on the staff of Representative John McKernan, and 
later, as I previously mentioned, in Governor McKernan's Cabinet.
    After leaving state government in 1995, Dr. Brennan opened a 
private consulting firm providing guidance on marine and environmental 
policy to businesses and governments. Over this same period, he was 
appointed to an academic chair position and lectured on ocean 
governance and resource management at the Corning School of Ocean 
Studies at the Maine Maritime Academy. Dr. Brennan later went on to 
receive his Ph.D. in ecology and environmental sciences from the 
University of Maine.
    Having served as the Deputy Assistant Secretary of Commerce for 
International Affairs since 2002, Dr. Brennan well understands the 
challenges facing the position of Assistant Administrator at NOAA. His 
management of the U.S. Climate Change Science Program, which 
coordinates and integrates scientific research on climate change across 
13 Federal agencies, also lends itself well to the skills needed to 
address the particular challenges associated with this position.
    From NOAA's development and acquisition of geostationary and polar 
weather and climate satellite systems, to advancing the Agency's 
mission to educate society about the importance of climate change 
science and research, to the successful implementation of the Magnuson 
Stevens Act amendments, Dr. Brennan is well-suited to successfully 
carry out the duties of the Assistant Secretary position.
    Mr. Chairman, I strongly endorse William Brennan's nomination to be 
the Assistant Secretary of Commerce for Oceans and Atmosphere and 
enthusiastically recommend him to this Committee.

       STATEMENT OF DR. WILLIAM J. BRENNAN, NOMINEE TO BE

         ASSISTANT SECRETARY FOR OCEANS AND ATMOSPHERE

              UNITED STATES DEPARTMENT OF COMMERCE

    Dr. Brennan. Thank you very much, sir. Mr. Vice Chairman, I 
am honored to appear before you today as the President's 
nominee to be the next Assistant Secretary of Commerce for 
Oceans and Atmosphere.
    I'm grateful and honored that the President has given me 
this opportunity to continue serving the American people, and I 
am deeply appreciative of the confidence and support that has 
been shown in me by Secretary Gutierrez and Under Secretary 
Lautenbacher.
    I would like to thank this Committee and particularly its 
staff for the courtesies they have extended to me throughout 
this process.
    Mr. Vice Chairman, I would not be here today were it not 
for my family and I would like to acknowledge them. Their 
support and encouragement has sustained me over the years and I 
wish to recognize and thank my wife Heather and daughter Hayley 
who are here with me today and my sons Will and Tyler who could 
not join us but are with me in spirit.
    Let me begin, Mr. Vice Chairman, by stating my strong 
commitment to the core mission of the department; namely, to 
serve the American people by helping to create the right 
conditions for economic growth and expanded opportunity.
    The Commerce Department and the National Oceanic and 
Atmospheric Administration address a wide range of important 
challenges each and every day. Our work takes place on a global 
basis, from marine fisheries and the Weather Service to other 
numerous scientific, environmental, technological and economic 
endeavors.
    The department's Assistant Secretary for Oceans and 
Atmosphere serves as NOAA's deputy administrator, helping to 
oversee its 12,500 employees and $4 billion budget. Indeed, one 
of the assistant secretary's important roles is to serve as the 
NOAA Administrator's primary advisor and surrogate and as an 
advocate for NOAA's programs and the development of the 
president's budget.
    With the support of this Committee and the hard-working men 
and women of NOAA, I am confident I can maintain the high 
standards set by my predecessors and support Secretary 
Gutierrez's commitment to excellence.
    If confirmed by the Senate, I would bring valuable 
experience and knowledge to the Office of Assistant Secretary 
for Oceans and Atmosphere. For the past 6 years, I have served 
as the Deputy Assistant Secretary for International Affairs, 
providing vision and strategic management of NOAA's $100 
million international program and special projects related to 
weather and water, ecosystem and marine resource management, 
commerce and transportation and climate services.
    For the past 2 years, I have also served in an acting 
capacity as the Director of the Climate Change Science Program, 
managing the interagency effort that integrates the planning of 
and $2 billion budget for Federal climate and global change 
activities of 13 Federal scientific agencies.
    I began my career in the Merchant Marine and as a 
commercial fisherman. Through that experience, I realized a 
love of the ocean, of the things that live in it and are 
supported by it, and in the rigors of a life associated with 
making a living from it.
    In the three decades since I took my first job with NOAA as 
a GS-5 technician at the National Marine Fisheries Service 
Laboratory in Woods Hole, Massachusetts, I have dedicated 
myself to environment and natural resource stewardship. I have 
served as a legislative assistant in the U.S. House of 
Representatives, working on fisheries and environmental issues.
    I have been a cabinet officer, heading the State of Maine's 
Department of Marine Resources. I have worked in the private 
sector providing environmental policy advice to public and 
private sector clients, and I have been a college professor, 
teaching and mentoring students in the field of ocean 
governance and resource management.
    Over the years, I have been in and out of government as an 
employee of NOAA, a NOAA contractor, a NOAA partner during my 
time as a member of the New England Fishery Management Council, 
and as a customer of NOAA when I was a state cabinet official.
    For the last several years, I've been part of NOAA's senior 
leadership and I have been privileged to help Vice Admiral 
Lautenbacher work to transform the agency into a cohesive 
enterprise.
    In these varied roles, I believe I have developed the 
skills and experience necessary to address the challenges and 
opportunities facing NOAA. I also recognize that I have much to 
learn about facets of the agency that I have not worked with on 
a regular basis.
    As I look forward to this continued education, I know that 
I will be well supported by the talented staff and employees 
and other professionals within NOAA. I am confident that with 
their support, I will perform my duties with the skill and 
professionalism that the public expects and deserves.
    If confirmed, there would be no more significant honor and 
capstone to my career than to serve as the Deputy Administrator 
of NOAA, and let me conclude by stating that it is my firm 
conviction that stewardship through public service is a special 
privilege and responsibility.
    If confirmed, I will commit my utmost energies, integrity 
and devotion to serving the American people.
    I want to thank you again for the opportunity to appear 
before you today and for your consideration of my nomination. I 
stand ready to answer your questions, sir.
    [The prepared statement and biographical information of Dr. 
Brennan follow:]

 Prepared Statement of Dr. William J. Brennan, Nominee to be Assistant 
   Secretary for Oceans and Atmosphere, United States Department of 
                                Commerce
    Mr. Chairman, Mr. Vice Chairman, Members of the Committee,

    I am honored to appear before you today as the President's nominee 
to be the next Assistant Secretary of Commerce for Oceans and 
Atmosphere. I am grateful and honored that the President has given me 
this opportunity to continue serving the American people, and I am 
deeply appreciative of the confidence and support shown to me by 
Secretary Gutierrez and Under Secretary Lautenbacher. I would also like 
to thank this Committee and its staff for the courtesies they have 
extended to me throughout this process.
    Mr. Chairman, I would not be here today were it not for my family 
and I would like to acknowledge them--their support and encouragement 
has sustained me over the years and I wish to recognize and thank my 
wife Heather and daughter Hayley who are with me today and my sons Will 
and Tyler who could not join us but who are with me in spirit.
    Let me begin by stating my strong commitment to the core mission of 
the Department, namely, to serve the American people by helping to 
create the right conditions for economic growth and expanded 
opportunity. The Commerce Department and the National Oceanic and 
Atmospheric Administration (NOAA) address a wide range of important 
challenges each and every day. Our work takes place on a global basis--
from marine fisheries and the weather service to other numerous 
scientific, environmental, technological, and economic endeavors.
    The Department's Assistant Secretary for Oceans and Atmosphere 
serves as NOAA's Deputy Administrator, helping to oversee its 12,500 
employees and $4 billion budget. Indeed, one of the Assistant 
Secretary's important roles is to serve as the NOAA Administrator's 
primary advisor and surrogate and as an advocate for NOAA's programs in 
the development of the President's budget. With the support of this 
Committee, and the hardworking men and women of the NOAA, I am 
confident I can maintain the high standards set by my predecessors and 
support Secretary Gutierrez's commitment to excellence.
    If confirmed by the Senate, I would bring valuable experience and 
knowledge to the office of Assistant Secretary for Oceans and 
Atmosphere. For the past 6 years, I have served as the Deputy Assistant 
Secretary for International Affairs--providing vision and strategic 
management of NOAA's $100 million international program and special 
projects related to weather and water, ecosystem and marine resource 
management, commerce and transportation, and climate services. For two 
of the past 6 years I have also served in an acting capacity as the 
Director of the Climate Change Science Program, managing the 
interagency effort that integrates the planning of and $2 billion 
budget for Federal climate and global change activities of 13 Federal 
scientific agencies.
    I began my career in the Merchant Marine and as a commercial 
fisherman. Through that experience, I realized a love of the ocean, of 
the things that live in it and are supported by it, and in the rigors 
of a life associated with making a living from it. In the three decades 
since I took my first job with NOAA as a GS-5 technician at the 
National Marine Fisheries Service laboratory in Woods Hole, 
Massachusetts, I have dedicated myself to environment and natural 
resource stewardship. I have served as a Legislative Assistant in the 
U.S. House of Representatives working on fisheries and environmental 
issues. I have been a Cabinet Officer heading the State of Maine's 
Department of Marine Resources. I have worked in the private sector 
providing environmental policy advice to private and public sector 
clients. And, I have been a college professor, teaching and mentoring 
students in the field of ocean governance and resource management.
    Over the years, I have been in and out of government as an employee 
of NOAA, a NOAA contractor, a NOAA partner during my time as a member 
of the New England Fishery Management Council, and as a customer of 
NOAA when I was a state cabinet official. For the last several years, I 
have been part of NOAA's senior leadership and I have been privileged 
to help VADM Lautenbacher work to transform the agency into a cohesive 
enterprise. In these varied roles, I believe I have developed the 
skills and experience necessary to address the challenges and 
opportunities facing NOAA. I also recognize that I have much to learn 
about facets of the Agency that I have not worked with on a regular 
basis. As I look forward to this continued education, I know that I 
will be well supported by the deep and talented staff of career 
employees and other professionals within NOAA. I am confident that, 
with their support, I will perform my duties with the skill and 
professionalism that the public, expects and deserve.
    If confirmed, there would be no more significant honor and capstone 
to my career than to serve as the Deputy Administrator of NOAA and let 
me conclude by stating that it is my firm conviction that stewardship 
through public service is a special privilege and responsibility. If 
confirmed, I will commit my utmost energies, integrity, and devotion to 
serving the American people. Thank you again for the opportunity to 
appear before you today, and for your consideration of my nomination.
    I would be pleased to respond to any questions that you may have 
for me.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): William 
Joseph Brennan (Bill).
    2. Position to which nominated: Assistant Secretary of Commerce for 
Oceans and Atmosphere.
    3. Date of Nomination: January 22, 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: United States Department of Commerce, 1401 Constitution 
        Ave, N.W., Room 6224, Washington, D.C. 20230.

    5. Date and Place of Birth: 12/02/1951; Rhode Island.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Heather Russell Brennan (spouse); children: William Russell 
        Brennan--24; Tyler Mackintosh Brennan--22; Hayley Julia 
        Brennan--19.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Maine, B.S., 1977.

        University of Rhode Island, M.A., 1985.

        University of Maine, Ph.D., 2002.

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        6/2006-Present; Director, U.S. Climate Change Science Program 
        (Acting), (Management level).

        6/2002-Present; Deputy Assistant Secretary of Commerce for 
        International Affairs, (Management level).

        9/1999-2002; Professor, Corning School of Ocean Studies, Maine 
        Maritime Academy, (Management level).

        1995-2002; Consultant, W.J. Brennan Associates, (Management 
        level).

        1987-1995; Commissioner, Maine Department of Marine Resources, 
        (Management level).

        1983-1987; Senior Legislative Assistant, U.S. House of 
        Representatives, (Management level).

        1982-1983; Consultant, Atlantic Offshore Fishermen's 
        Association, (Non-managerial).

        1977-1982; Marine technician and scientist, National Marine 
        Fisheries Service, (Non-managerial).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization, 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap: None.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Deputy Assistant Secretary of Commerce (2002--present) (No debt or 
personal liability).
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        November 5, 2002, Climate Change and Utilization of Marine 
        Resources: The Importance of Enhancing the Global Climate 
        Observing System, 10th Anniversary Conference of the Marine 
        Institute of Ireland, Dublin, Ireland.

        February 3, 2003, U.S. Efforts for Sustainable Fisheries, The 
        Norwegian Research & Technology Forum in the U.S./Canada, 
        Washington, D.C.

        June 11, 2003, Exploring Our Oceans--The International 
        Perspective, Capitol Hill Oceans Week Symposium, Washington, 
        D.C.

        July 14, 2003, Association of Marine Laboratories of the 
        Caribbean, 31st Scientific Meeting, Port of Spain, Trinidad.

        August 21, 2003, Developing Countries and the Restoration of 
        Large Marine Ecosystems, UNIDO Symposium, Vienna, Austria.

        November 12, 2003, U.S. Implementation of World Summit on 
        Sustainable Development Commitments, Global Conference on 
        Oceans, Coasts and Islands, Paris, France.

        December 4, 2003, U.S. Activities on Climate Change, 9th 
        Conference of the UNFCCC Parties, Milan, Italy.

        January 28, 2004, International Perspectives on Coordination of 
        Earth Observation Activities, Toronto, Canada.

        May 3, 2004, U.S. Commitments to World Summit Goals for 
        Sustainable Development, Fourth World Fisheries Congress, 
        Vancouver, Canada.

        June 2, 2004, GISD: Employing Earth Observations for the 
        Benefit of Humankind, Geographic Information for Sustainable 
        Development Implementation Workshop, Washington, D.C.

        June 8, 2004, Keynote Address, 30th Commemorative Meeting, 
        Poland-U.S. Joint Cooperative Fisheries, Narragansett, RI.

        October 5, 2004, The International Effort to Coordinate Earth 
        Observation Activities, International Astronautical Congress, 
        Vancouver, Canada.

        June 6, 2005, Moving Toward a Global All Hazards Warning 
        System, Asia Pacific Tsunami and All Hazards Workshop, 
        Honolulu, HI.

        November 21, 2005, GEOSS: Serving Society from Tsunami to 
        Multi-Hazard, Intergovernmental Oceanographic Commission, Rome, 
        Italy.

        March 28, 2006, Global Earth Observation System of Systems, 
        International Air Show, Santiago, Chile.

        May 11, 2006, NOAA's Role in International Science 
        Partnerships, National Science Board, Washington, D.C.

        July 13, 2006, Law, Science and Ocean Management, 30th Virginia 
        Law of the Sea Conference, Dublin, Ireland.

        April 26, 2007, Climate Change in the Northwest Atlantic, 
        Center for Law & Innovation, Portland, Maine.

        June 5, 2007, Keynote Address, 24th Annual Meeting of the North 
        Atlantic Salmon Conservation Organization, Bar Harbor, Maine.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        February 7, 2007, Oversight Hearing, Climate Change Research 
        and Scientific Integrity, Committee on Commerce, Science and 
        Transportation, U.S. Senate.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have dedicated myself to environment and natural resource 
stewardship. I began my career more than 30 years ago with NOAA 
Fisheries at its Woods Hole laboratory after working in the commercial 
fisheries and the merchant marine. Over the years, I have worked in 
both the legislative and executive branches at both the state and 
Federal level and have been in and out of government as an employee of 
NOAA, a NOAA contractor, a NOAA partner during my time as a member of 
the New England Fishery Management Council, and as a customer of NOAA 
when I was a state cabinet official heading the Maine Department of 
Marine Resources. For the last several years, I have been part of the 
NOAA senior leadership and have been privileged to help VADM 
Lautenbacher transform the agency into a well managed cohesive 
enterprise. I can think of no more significant honor and cap stone to 
my career than to serve as the number two NOAA official and I believe 
my 30 years of experience with NOAA affirmatively qualifies me for 
appointment to this position.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Assistant Secretary, I will work closely with NOAA 
Administrator Lautenbacher, NOAA's Executive Management Council, NOAA's 
Chief Operating Officer, and NOAA's Line Office Assistant 
Administrators to exercise the oversight necessary to ensure that NOAA 
programs are effective and that NOAA's organizational goals and 
objectives are achieved. I will continue to advance the reforms 
established by Administrator Lautenbacher associated with planning, 
programming, budgeting and execution. And I will be a strong advocate, 
with the Department, OMB and the Congress to ensure NOAA has the 
resources necessary to accomplish its mission.
    I have extensive experience managing a large organization. As 
acting Director of the U.S. Climate Change Science Program, I have 
provided leadership and vision for a $1.8 billion program integrating 
Federal climate and global change activities of 13 Federal agencies and 
White House offices. During my time as Deputy Assistant Secretary for 
International Affairs, I have been responsible for the strategic 
management and organizational restructuring of a $100 million 
international program. And, as the secretary of a cabinet-level state 
agency, I have managed a complex and diverse program of research, 
enforcement, development, marketing, monitoring, and education.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    Development and acquisition of satellites. NOAA is in the process 
of acquiring its next generation geostationary and polar satellite 
systems. These systems are crucial to our nation's ability to forecast 
weather and vital to public safety and to our nation's military. For 
the next generation polar satellite program, NOAA along with its 
interagency partners, the USAF and NASA, has experienced significant 
technical and management challenges, while the next generation 
geostationary satellite program has just transitioned from the design 
to the acquisition phase. These are very complicated and extremely 
expensive systems, requiring long lead times to ensure continuity of 
data and information, making this one of NOAA's most important 
challenges.
    Global change science and research. NOAA is charged with helping 
society understand, plan for, and respond to climate variability and 
change. This is achieved through the development and delivery of 
climate information services, the implementation of a global observing 
system, and focused research and modeling to understand key climate 
processes. The NOAA climate mission is focused on providing a 
predictive understanding of the global climate system so the public can 
incorporate the information and products into their decisions.
    NOAA meets user demands for climate information and decision 
support by providing data, summaries, and forecasts, underpinned by a 
vigorous research program. In recent years, users have voiced a growing 
concern about the impacts of climate change. These demands are growing 
and require unbiased climate information at increasingly finer 
resolution scales. A key challenge for NOAA is to enhance its ability 
to meet these demands by continuing strong science and observations 
programs while consolidating information sources into a homogeneous 
distribution portal, providing more variables, fidelity, and resolution 
to its climate products and information services.
    Implementation of Magnuson Stevens Act Amendments. The recent 
reauthorization of the Magnuson Stevens Fishery Conservation and 
Management Act was a significant achievement for both Congress and the 
Administration, made possible by the leadership of Chairman Inouye and 
Vice-Chairman Stevens. The Act provided NOAA with several new 
authorizations, including the need to end overfishing immediately and 
combat Illegal, Unregulated and Unreported fishing. Fully implementing 
the amendment present challenges, both domestically and 
internationally, and NOAA is presently working to develop regulations 
to implement the provisions of the Act and is actively engaged within 
the Regional Fishery Management Organization fora to bring about the 
necessary changes.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: See ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: See ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                  resume of dr. william joseph brennan
Experience
    6/2006-Present, Director, U.S. Climate Change Science Program 
(Acting).

        Direct the interagency program that coordinates and integrates 
        scientific research on changes in climate and related systems. 
        The Climate Change Science Program is composed of 13 Federal 
        scientific agencies and integrates the planning of and $2 
        billion budget for Federal climate and global change 
        activities.

    6/2002-Present, Deputy Assistant Secretary of Commerce for 
International Affairs.

        Direct the international activities of the National Oceanic and 
        Atmospheric Administration (NOAA) and its subsidiary branches; 
        Weather Service, Fisheries Service, Ocean Service, Satellite 
        and Data Information Service, and Oceanic and Atmospheric 
        Research in support of a $100 million program related to 
        weather and water, ecosystem and marine resource management, 
        commerce and transportation, and climate services.

    9/1999-2002, Professor, Corning School of Ocean Studies, Maine 
Maritime Academy.

        Appointed to academic chair as lecturer in the field of ocean 
        governance and resource management. Managed a research grant 
        program and conducted special projects for the President in 
        program and curriculum development.

    1995-2002, Consultant, W.J. Brennan Associates.

        Principal in consulting firm providing policy and strategic 
        planning advice to private and public sector domestic and 
        international clients with a focus on fisheries, marine, and 
        environmental affairs.

    1987-1995, Commissioner, Maine Department of Marine Resources.

        Cabinet officer in administration of Governor John R. McKernan, 
        Jr. and chief executive officer of state agency engaged in 
        fisheries and marine research, enforcement, development, 
        marketing, monitoring, and education. State resource management 
        representative in regional, national, and international fora.

    1983-1987, Senior Legislative Assistant, U.S. House of 
Representatives.

        Managed legislative activities in office of Congressman John 
        McKernan, Jr. with professional focus in the areas of 
        fisheries, environment, merchant marine, transportation, and 
        energy.

    1982-1983, Consultant, Atlantic Offshore Fishermen's Association.

        Grant writing and research proposal development for New 
        England-wide commercial fishing organization.

    1977-1982, Marine Scientist, National Marine Fisheries Service.

        Positions of increasing levels of responsibility within the 
        field of fisheries and environmental research at the Woods 
        Hole, MA; Narragansett, RI; and Sandy Hook, NJ research 
        stations.
Education
    Ph.D., University of Maine, May 2002 (Ecology & Environmental 
Sciences).
    M.A., University of Rhode Island, 1985 (Marine Affairs).
    B.S., University of Maine, 1977 (Marine Biology).

    Senator Stevens. Thank you. I wish there had been more 
people here to have heard your statement.
    As one who sort of is involved with the oceans, also, I 
welcome your experience and your know-how to this position in 
NOAA. We look forward to working with you and I will recommend 
to the Chairman that we try to have a meeting of the Committee 
and report these nominations out so they might be confirmed 
just as quickly as possible.
    Thank you very much. Thank you, both.
    Ms. Claffee. Thank you, sir.
    Dr. Brennan. Thank you.
    [Whereupon, at 2:42 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
